CERTIFICATE OF SERVICE
NO. TBD
Deborah Holter
Petitioner,
v.
The City of Mandan, a Political Subdivision of the State of North Dakota
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
DEBORAH HOLTER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Amy M. Oster
Crowley Fleck PLLP
100 West Broadway, Suite 250
P.O. Box 2798
Bismarck, ND 58502-2798
(701) 223-6585
aoster@crowleyfleck.com
Counsel for The City of Mandan

Lucas DeDeus

December 18, 2020
SCP Tracking: Larson-1100 College Drive-Cover White

